           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Report on Financial Statements                             Date:    January 24, 2003
           for Fiscal Years 2002 and 2001, Highway Trust Fund
           FI-2003-015

  From:    Kenneth M. Mead                                                      Reply To
           Inspector General                                                    Attn. of:   Meche:x61496

    To:    The Secretary

           I respectfully submit the Office of Inspector General (OIG) report on the Highway
           Trust Fund (HTF) Financial Statements for Fiscal Years (FY) 2002 and 2001. This
           report is required by the Chief Financial Officers Act of 1990, as amended by the
           Government Management Reform Act of 1994.

           This report presents our unqualified opinion on the HTF Consolidated Balance Sheet,
           Statement of Net Cost, Statement of Changes in Net Position, and Statement of
           Financing, and the Combined Statement of Budgetary Resources as of, and for the
           years ended, September 30, 2002, and September 30, 2001.

           The unqualified, or "clean," opinion did not come without extraordinary effort by HTF
           agencies and OIG auditors. This report identifies significant financial issues.
           However, with the effective leadership of the Department of Transportation (DOT)
           Chief Financial Officer and the Federal Transit Administrator, and the hard work by
           DOT employees to address these issues timely, the clean opinion was attained.

           The HTF Financial Statements are the responsibility of the Federal Highway
           Administration (FHWA), Federal Transit Administration (FTA), National Highway
           Traffic Safety Administration, Federal Railroad Administration, and the Federal Motor
           Carrier Safety Administration. FHWA is the lead agency for preparing financial
           statements for the HTF agencies.

           To assist us, the Department of the Treasury (Treasury) Office of Inspector General
           audited the schedule of assets and liabilities, and the related schedule of activity for the
           HTF accounts (referred to as the Corpus account) administered by the Treasury Bureau
           of Public Debt. The Treasury OIG issued an unqualified opinion on these schedules.
           The General Accounting Office (GAO) performed agreed-upon procedures on tax
           revenue receipts at the Internal Revenue Service and distributions to the HTF Corpus
           account, and identified no material discrepancies.
We identified one material weakness affecting the HTF Financial Statements. As
required by the Federal Managers' Financial Integrity Act of 1982, the following
material weakness was reported in DOT's 2002 report to the President and Congress.

   • Last year, we reported that a headquarters account created by former FTA
     employees existed to hold obligations which were adjusted using inappropriate
     accounting procedures. This account had a negative $77 million obligation
     balance as of September 30, 2001. While addressing this issue during FY 2002,
     FTA discovered that this account contained the remaining balance of what at
     one time was a $562 million overobligation that had occurred 19 years earlier.

      Rather than report the Antideficiency Act violation in FY 1984, former FTA
      employees engaged in inappropriate actions, such as (1) using funds from other
      appropriations, some of which had expired for obligation purposes;
      (2) maintaining records outside the accounting system; and (3) manipulating
      financial information on reports to Treasury and the Office of Management and
      Budget (OMB) to prevent detection.

      After a thorough review of its financial records, FTA found that the remaining
      balance of the FY 1984 overobligation was about $29 million and the deficiency
      involved non-HTF accounts as of September 30, 2002. This labor-intensive
      effort identified a material internal control weakness involving many areas of
      FTA financial practices. For example, about $7 billion of adjustments were
      needed to correct the FY 2002 HTF Financial Statements. FTA is taking or
      plans to take corrective actions.

We also identified the following key issues involving internal control weaknesses and
compliance with laws and regulations. While they are important, they did not affect
our audit opinion.

   • An interface deficiency existed between FHWA's grants management system
     and the DOT accounting system, which underreported valid obligations by about
     $388 million. FHWA corrected its financial records and financial statements.

   • FHWA needed to do more to determine whether obligations on inactive projects
     were needed. We identified about $118 million of obligations that were no
     longer needed on inactive projects. FHWA and the states agreed, and these
     funds were made available for other projects or returned to the U.S. Treasury.

   • The HTF agencies were not in compliance with the Federal Financial
     Management Improvement Act of 1996 because DOT's accounting system did
     not (1) provide the data for preparing the HTF Financial Statements, (2) comply
     with the U.S. Government standard general ledger, and (3) comply with
     requirements for implementing managerial cost accounting standards. The HTF
      agencies also need to enhance computer security over the financial information
      systems. DOT and the HTF agencies plan to have compliant and secure
      financial systems by September 2004.

   • DOT spent about $37 million obtained from Treasury miscellaneous receipts
     accounts between FYs 1998 and 2001, rather than using appropriated funds.
     DOT had no authority to spend Treasury's money. When the erroneous
     transactions were corrected during FY 2002, FHWA appropriations were
     overobligated by about $5 million. We recommended corrective actions in a
     separate report. DOT is in the process of reporting the Antideficiency Act
     violation to OMB and Congress.

   • FHWA's accounting treatment for recovery of prior year funds was not in
     accordance with OMB reporting requirements.          FHWA was combining
     recovered prior year funds with current year funds. FHWA plans to propose a
     revision to the Transportation Equity Act to permit this accounting treatment.
     Notwithstanding, FHWA needs to obtain OMB approval to deviate from its
     accounting and reporting requirements.

   • The performance measures presented in the Management Discussion and
     Analysis did not provide information about the cost-effectiveness of programs
     nor relate to the Statement of Net Cost. Of the 20 FY 2002 performance
     measures, 9 were based on FY 2001 rather than FY 2002 performance data.
     None of the measures was linked to the cost of achieving targeted results.

We are making two recommendations concerning FTA implementing internal controls
and reporting of the FY 1984 Antideficiency Act violation and FHWA's accounting for
prior year funds. DOT and the HTF agencies have ongoing corrective actions to
address the internal control and compliance issues. Issues that are common to HTF and
other DOT agencies will be addressed in our report on the DOT Consolidated Financial
Statements.

A draft of this report was provided to the DOT, FHWA, and FTA Chief Financial
Officers on January 21, 2003. They agreed with the report.

We appreciate the cooperation and assistance of representatives of DOT and the HTF
agencies. If we can answer any questions, please call me at (202) 366-1959, or
John Meche at (202) 366-1496.

Attachments
                                         #
                                        TABLE OF CONTENTS


TRANSMITTAL MEMORANDUM

SECTION          I:        INDEPENDENT AUDIT REPORT
                           ON THE HIGHWAY TRUST FUND
                           FINANCIAL STATEMENTS
                           FOR FISCAL YEARS 2002 AND 2001 ................................ I-1


A.      Unqualified Opinion on Financial Statements ................................................ I-2

B.      Consideration of Internal Controls ................................................................. I-2

C.      Compliance with Laws and Regulations......................................................... I-4

D.      Consistency of Other Information................................................................... I-10

E.      Prior Audit Coverage ...................................................................................... I-10

EXHIBIT: Objectives, Scope, and Methodology...................................................... I-11

SECTION          II:       FINANCIAL STATEMENTS

        Consolidated Balance Sheet ............................................................................ II-1

        Consolidated Statement of Net Cost ............................................................... II-2

        Consolidated Statement of Changes in Net Position....................................... II-3

        Combined Statement of Budgetary Resources................................................ II-4

        Consolidated Statement of Financing ............................................................. II-5

        Notes to the Financial Statements ................................................................... II-6

SECTION          III:      SUPPLEMENTARY INFORMATION

        Management Discussion and Analysis............................................................ III-1

        Supplementary and Stewardship Information ................................................. III-66

        Consolidating Financial Statements ................................................................ III-72
                DEPARTMENT OF TRANSPORTATION
        INSPECTOR GENERAL'S INDEPENDENT AUDIT REPORT
       ON THE HIGHWAY TRUST FUND FINANCIAL STATEMENTS
                 FOR FISCAL YEARS 2002 AND 2001


To the Federal Highway Administrator,
Federal Transit Administrator,
National Highway Traffic Safety Administrator,
Federal Railroad Administrator, and
Federal Motor Carrier Safety Administrator

The Department of Transportation (DOT), Office of Inspector General (OIG), audited
the Highway Trust Fund (HTF) Financial Statements and accompanying notes as of,
and for the years ended, September 30, 2002, and September 30, 2001. In our audit of
the HTF Financial Statements for Fiscal Years (FY) 2002 and 2001, we found:

   • the financial statements are fairly presented, in all material respects, in
     conformity with U.S. generally accepted accounting principles;

   • a material internal control weakness in the Federal Transit Administration (FTA)
     accounting and financial reporting; and reportable conditions concerning
     recorded obligations, prior year recoveries, and performance measures;

   • noncompliance with the Federal Financial Management Improvement Act of
     1996 (FFMIA) regarding: (1) DOT's accounting system, (2) financial system
     interfaces, (3) computer security over financial information systems,
     (4) managerial cost accounting standards, and (5) overobligation of funds;

   • financial information in the Management Discussion and Analysis was
     materially consistent with the financial statements, except 9 of 20 performance
     measures were based on FY 2001 rather than FY 2002 performance data; and

   • supplementary and stewardship information was consistent with management
     representations and the financial statements.

We performed our work in accordance with U.S. generally accepted government
auditing standards and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements. The following sections discuss these
conclusions. Our audit objectives, scope, and methodology are discussed in the
Exhibit. We believe that our audit provides a reasonable basis for our opinion.
A.     UNQUALIFIED OPINION ON FINANCIAL STATEMENTS
In our opinion, the Consolidated Balance Sheet, Statement of Net Cost, Statement of
Changes in Net Position, and Statement of Financing, and the Combined Statement of
Budgetary Resources, including accompanying notes, present fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles, the HTF
assets, liabilities, and net position; net costs; changes in net position; budgetary
resources; and reconciliation of net costs to budgetary obligations as of
September 30, 2002, and September 30, 2001.

B.     CONSIDERATION OF INTERNAL CONTROLS
In planning and performing our audit, we considered HTF agencies' internal controls
over financial reporting and compliance with laws and regulations. We do not express
an opinion on internal controls and compliance because the purpose of our work was to
determine our procedures for auditing the financial statements and to comply with
OMB Bulletin 01-02 audit guidance, not to express an opinion on internal controls.

For the controls we tested, we found a material weakness concerning FTA's accounting
and financial reporting. A material weakness is a condition in which the design or
operation of one or more of the internal control components does not reduce, to a
relatively low level, the risk that errors, fraud, or noncompliance that would be material
to the financial statements, may occur and not be detected promptly by employees in
the normal course of performing their duties. Our internal control work would not
necessarily disclose all material weaknesses or reportable conditions.

Our work also identified the need to improve internal controls over financial reporting
and compliance in two other areas. These reportable weaknesses in internal controls,
although not considered material weaknesses, represent significant deficiencies in the
design and operation of internal controls, which could adversely affect the HTF
Financial Statements.

Material Weakness

The following section describes a material weakness concerning FTA's accounting and
financial reporting. On December 26, 2002, as required by the Federal Managers'
Financial Integrity Act of 1982, the Secretary of Transportation reported this material
weakness to the President and Congress.

Accounting and Reporting of FTA Financial Transactions
Last year, we reported that a headquarters account created by former FTA employees
existed to hold obligations which were adjusted using inappropriate accounting
procedures. This account had a negative $77 million obligation balance as of

                                         I-2
September 30, 2001. While addressing this issue during FY 2002, FTA discovered that
this account contained the remaining balance of what at one time was a $562 million
overobligation that had occurred 19 years earlier.

Rather than report the Antideficiency Act violation in FY 1984, former FTA employees
engaged in inappropriate actions, such as (1) using funds from other appropriations,
some of which had expired for obligation purposes; (2) maintaining records outside the
accounting system; and (3) manipulating financial information on reports to OMB and
Treasury to prevent detection. After a thorough review of its financial records, FTA
found that the remaining balance of the FY 1984 overobligation was about $29 million
and the deficiency involved non-HTF accounts as of September 30, 2002. This issue
will be addressed in our report on the DOT Consolidated Financial Statements.

When this was brought to the current FTA Administrator's attention, she directed that a
comprehensive review be made of FTA financial accounting and reporting. This
labor-intensive effort identified a material internal control weakness involving many
areas of FTA financial practices as the following examples indicate.

   • About $7 billion of adjustments were needed to correct the HTF Financial
     Statements.

   • Interface deficiencies between the new DOT accounting system (Delphi) and
     FTA's financial feeder systems (TEAM and ECHO) prevented FTA from
     electronically processing transactions. For example, about $350 million in
     ECHO payments had to be manually processed into Delphi.

   • Until July 2002, FTA was not reconciling financial data between the DOT
     accounting system (DAFIS) and FTA's financial feeder system, TEAM.
     Differences between the two systems totaled about $200 million as of
     September 30, 2002.

   • In June 2002, when FTA implemented Delphi, significant obligation and
     expense transactions were not electronically transferred to Delphi. For example,
     when FTA manually processed transactions, about $64 million in valid
     obligations were not entered into Delphi.

FTA corrected its financial records and provided accurate amounts for the financial
statements. FTA also is in the process of implementing new internal control policies
and procedures to address the material weakness.

Recommendation 1. We recommend that FTA report the Antideficiency Act violation
that occurred in FY 1984 to OMB and Congress and ensure new internal control
policies and procedures are implemented.

                                       I-3
Reportable Conditions
Internal control weaknesses existed because of an electronic interface deficiency
between the Federal Highway Administration (FHWA) grants management system and
the HTF agencies' accounting system, and insufficient reviews by FHWA and states to
identify inactive obligations that were no longer needed.

FHWA’s Grants Management System

Last year, we reported an electronic interface deficiency between FHWA's Fiscal
Management Information System (FMIS) and DAFIS, and recommended corrective
action. FMIS records initial obligations for Federal-aid grants to states. However,
when FMIS interfaces with DAFIS, all obligations are not electronically transferred
into DAFIS. This occurs due to problems resulting from upgrades and changes that
were made to the FMIS system. FHWA also did not reconcile obligated balances
between FMIS and DAFIS. As of September 30, 2002, valid obligations totaling
$388 million were understated.

FHWA corrected its financial records and reported the appropriate amounts on the
FY 2002 Statement of Budgetary Resources. FHWA plans to resolve this interface
deficiency during the Delphi implementation process.

Inactive Obligations

Last year, we reported that FHWA and the states were not adequately reviewing
obligated balances on inactive projects. As of June 30, 2002, FHWA had about
$37 billion in recorded obligations.      About 39,000 obligations, totaling about
$5.6 billion, had no activity within 18 months. We compared obligations on inactive
projects in DAFIS to closed projects in FMIS and identified $118 million of obligations
that were no longer needed on inactive projects. FHWA and the states agreed, and
these funds were made available for other essential projects or returned to the
U.S. Treasury.

C.    COMPLIANCE WITH LAWS AND REGULATIONS
Our objective was not to express, and we do not express, an opinion on compliance
with laws and regulations. Our work was limited to selected provisions of laws and
regulations that would be reportable under U.S. generally accepted government
auditing standards or under OMB guidance. Our work disclosed the following
instances of noncompliance with FFMIA and other laws and regulations.




                                       I-4
Federal Financial Management Improvement Act of 1996

Under FFMIA, we are required to report whether or not HTF financial management
systems substantially comply with: (1) Federal financial management system
requirements, (2) applicable Federal accounting standards, and (3) the
U.S. Government standard general ledger at the transaction level. On January 4, 2001,
OMB issued Revised Implementation Guidance for the Federal Financial Management
Improvement Act, including factors for determining compliance and auditor reporting
responsibilities. To meet the FFMIA audit requirement, we performed tests of
compliance with the three FFMIA section 803(a) requirements and the revised OMB
guidance, including financial management systems; the standard general ledger; and
accounting standards.

The HTF agencies did not meet FFMIA requirements for financial management
systems because: (1) DOT's accounting system, DAFIS, cannot produce auditable
financial statements; (2) interface deficiencies exists between DAFIS and FMIS and
between Delphi and FTA's financial feeder systems; (3) HTF agencies need to enhance
computer security over financial information systems; (4) DAFIS does not use the
U.S. Government standard general ledger; (5) HTF agencies have not implemented
managerial cost accounting standards; and (6) a material weakness existed concerning
FTA's accounting and financial reporting.

Financial Management System Requirements
FHWA and the Federal Motor Carrier Safety Administration (FMCSA), which account
for about 75 percent of the HTF agencies' budgets, use DAFIS which cannot produce
financial statements based on the information included within the system. For
example, FHWA and FMCSA made about 300 adjustments, totaling about $11 billion,
outside DAFIS to prepare the financial statements. These adjustments were recorded in
a financial statement module, a tool used to process the adjustments. However, these
two HTF agencies did not use the financial statement module to prepare the financial
statements and the adjustments were not recorded in DAFIS.

DOT plans to have Delphi fully operational for HTF agencies by March 2003.
Although Delphi is being used by three of the five HTF agencies, the system is under
development and does not yet fully meet all FFMIA requirements for financial
management systems. Of the three HTF agencies on Delphi, none used the capabilities
in Delphi to prepare its FY 2002 financial statements. Delphi compliance with FFMIA
will be discussed in our report on the DOT Consolidated Financial Statements.

Interface deficiencies exist between DAFIS and FMIS, and between Delphi and FTA's
financial feeder systems. The Joint Financial Management Improvement Program
(JFMIP) Core Financial System Requirements and Grant Financial System

                                      I-5
Requirements and OMB guidance require that, to be compliant with FFMIA, integrated
financial management systems must maintain data accuracy between the core financial
system and feeder systems. As discussed in Section B, an interface deficiency between
DAFIS and FMIS resulted in recorded obligations in DAFIS being understated by
$388 million. Interface deficiencies between Delphi and FTA's financial feeder
systems prevented FTA from electronically processing transactions. FHWA and FTA
plan to resolve these deficiencies during the Delphi implementation process.

The HTF agencies also need to enhance computer security over financial information
systems. One recommendation from a prior OIG report relating to data processing
controls and safeguards has not been fully implemented. FHWA still needs to
complete a security plan for its two major financial feeder systems and perform
required certification and accreditation reviews as required by OMB Circular A-130.
FHWA also needs to enhance security over network connections with industry
associations and ensure that background checks are completed on contractor personnel
working on financial systems. FHWA plans to complete corrective actions by
March 2003. Computer security is a Departmentwide issue that will be addressed in
our report on the DOT Consolidated Financial Statements.

U.S. Government Standard General Ledger

DAFIS does not comply with the U.S. Government standard general ledger (SGL) at
the transaction level because it does not use all of the SGL accounts. As a result, about
300 adjustments, totaling $11 billion, were made outside DAFIS and financial
statements were prepared manually. Delphi is compliant with the SGL, and DOT plans
to have Delphi fully operational in all HTF agencies by March 2003.

Federal Cost Accounting Standards

HTF agencies have not made progress implementing managerial cost accounting
standards or using cost accounting practices to identify the costs of HTF programs.
Statement of Federal Financial Accounting Standards (SFFAS) Number 4, Managerial
Cost Accounting Standards, require that beginning in FY 1998, each reporting entity
should accumulate and report the costs of its activities on a regular basis. DAFIS does
not have the capability to capture full costs, including direct and indirect costs assigned
to HTF programs. DOT plans to be compliant with cost accounting standards by
September 2004. This is a Departmentwide issue that will be addressed in our report
on the DOT Consolidated Financial Statements.

Accounting and Reporting of FTA Financial Transactions
OMB Circular A-123, Management Accountability and Control, requires that agencies
establish organization, policies, and procedures to ensure that transactions are properly
classified and accounted for, and that obligations and costs are recorded in compliance

                                         I-6
with applicable laws and regulations. As discussed in Section B, a material internal
control weakness exists in FTA's financial accounting and reporting practices. FTA
has ongoing corrective actions to resolve the material weakness.

On December 26, 2002, as required by the Federal Managers' Financial Integrity Act of
1982, the Secretary of Transportation reported the material weakness in FTA's internal
controls in DOT's 2002 report, and that DOT was taking remedial and progressive
actions that will bring DOT into substantial compliance with FFMIA when its actions
are successfully implemented.

Inactive Obligations
Title 31, United States Code, Section 1501 and Treasury Financial Management
Bulletin 2002-07 state that obligations must be supported and that agencies only report
valid obligations. As discussed in Section B, about $118 million of obligations that
were no longer needed were in the financial records. FHWA and the states agreed, and
these funds were made available for other projects or returned to the U.S. Treasury.

Antideficiency Act Violations
Title 31, United States Code, Section 1341(a) provides that an officer or employee of
the U.S. Government may not make or authorize an expenditure or obligation
exceeding an amount available in an appropriation. As discussed in Section B, a
$562 million overobligation occurred in FY 1984, and FTA still needs about
$29 million to pay the remaining overobligation balance.

DOT also spent about $37 million obtained from Treasury miscellaneous receipts
accounts between FYs 1998 and 2001, rather than using appropriated funds. DOT had
no authority to spend money from Treasury miscellaneous receipts accounts. When the
erroneous transactions were corrected during FY 2002, FHWA prior-year
appropriations were overobligated by about $5 million. We made recommendations for
corrective action in a separate report. This is a Departmentwide issue that will be
addressed in our report on the DOT Consolidated Financial Statements. DOT is in the
process of reporting the Antideficiency Act violations to OMB and Congress.

Prior Year Recoveries

Title 31, United States Code, Chapters 13 and 15, as implemented in OMB Circular
A-11, Preparation, Submission, and Execution of the Budget, which replaced OMB
Circular A-34 in June 2002, requires agencies to separately report deobligations of
prior year funds and new obligations. FHWA's current practice combines current year
obligations with prior year recoveries. This accounting treatment previously was
allowed, but was disallowed in the revised OMB Circular A-34. Despite the change,


                                       I-7
FHWA continued to administer the Federal-aid account based on the earlier
requirement in OMB Circular A-34 and its operating legislation under Title 23,
Section 118.

FHWA disclosed this noncompliance in the notes to the financial statements. Because
of the conflicting guidance in Title 31 and Title 23, FHWA plans to propose a revision
to the Transportation Equity Act for the 21st Century that would exempt FHWA from
the accounting and reporting requirements in OMB Circular A-11. The noncompliance
impacts the amounts reported for obligations incurred and adjustments on the
Statement of Budgetary Resources, but an amount could not be determined.

Recommendation 2. We recommend that FHWA obtain OMB approval to deviate
from the accounting and reporting requirements of OMB Circular A-11.

Performance Data

Under OMB Bulletin 01-02, our responsibility is to obtain an understanding of internal
controls relating to the existence and completeness of performance data. The HTF
agencies are responsible for establishing and maintaining adequate internal controls.
The FY 2002 DOT Performance and Accountability Report contains 39 primary and 25
supplementary performance measures, of which 20 were in the HTF Financial
Statements. The overall presentation of the 20 performance measures complied with
OMB Bulletin 01-09, Form and Content of Agency Financial Statements, to report
performance measures consistent with goals and objectives from agencies' strategic and
performance plans.

Linking to Statement of Net Cost and Measuring Cost-Effectiveness
According to OMB Bulletin 01-09:

      Entities should strive to develop and report objective measures that . . .
      provide information about the efficiency and cost effectiveness of
      programs. The discussion of performance . . . should be clearly linked to
      cost categories . . . featured in the Statement of Net Cost. . . . To further
      enhance the usefulness of the information, agencies should include an
      explanation of what needs to be done and what is planned . . . to improve
      financial or program performance.

The HTF agencies still do not have the systems in place to allocate costs by major
program and the performance measures presented in the financial statements did not
provide information about cost-effectiveness. Consequently, none of the performance
measures was linked to the cost of achieving targeted results or to the Statement of Net
Cost. DAFIS does not have the capability to accurately identify program costs. DOT

                                        I-8
is in the process of replacing DAFIS, and plans to have Delphi in full operation in the
HTF agencies by March 2003.

Assessing Internal Controls

We performed various procedures to assess internal controls relating to performance
data. While our work disclosed no material internal control weaknesses, we were not
required to, and we did not, test the validity or accuracy of performance data as part of
the HTF Financial Statement audit. However, the HTF agencies are facing a
significant challenge to ensure the incoming data are accurate and complete.

The HTF agencies rely on third-party organizations outside the Federal Government,
such as states, grantees, and transit authorities, for most of the performance data. States
report on a calendar-year basis, and HTF agencies did not receive some information in
time to incorporate it into the financial statements. Of the 20 performance measures, 9
were based on FY 2001 rather than FY 2002 performance data.

Reporting of Planned Actions
To enhance the usefulness of performance information, OMB Bulletin 01-09
encourages entities to include an explanation of what is planned to improve financial or
program performance. The Management Discussion and Analysis overview includes
general comments on how to improve performance; however, specific plans to improve
financial performance were not included.

Indirect Costs Charged to FHWA Grants

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
provides that to be allowable under Federal awards, costs must be allocable to a
particular grant or contract in accordance with the benefits received. All activities,
Federal and non-Federal, that benefit from indirect costs should receive an equitable
share. We found that one state inappropriately billed FHWA grants for indirect costs.
In some instances, the state assigned indirect costs only to selected FHWA grants,
although the expenditures benefited other Federal and non-Federal projects. The state
agreed to correct its billing practices and refund about $3.5 million.

Intragovernmental Balances
OMB Bulletin 01-09 requires that reporting entities reconcile intragovernmental asset,
liability, and revenue amounts by confirming balances quarterly with their trading
partners. HTF agencies only partially confirmed or reconciled their intragovernmental
balances.     However, our testing found no material differences.          This is a
Departmentwide issue that will be addressed in our report on the DOT Consolidated
Financial Statements.

                                         I-9
D.    CONSISTENCY OF OTHER INFORMATION

Management's Discussion and Analysis, required supplementary information
(including stewardship information), and other accompanying information contain a
wide range of data, some of which are not directly related to the financial statements.
We are not required to, and we do not, express an opinion on this information. We
compared this information for consistency with the HTF Financial Statements and
discussed the methods of measurement and presentation with HTF agency officials.
Based on this work, except for FY 2002 performance measures that were based on
FY 2001 performance data (Part C of this report), we found no material inconsistencies
with the HTF Financial Statements nor nonconformance with OMB guidance.

E.    PRIOR AUDIT COVERAGE
Our report on the HTF Financial Statements for FYs 2001 and 2000 expressed an
unqualified opinion and included one recommendation that FHWA establish
procedures to reconcile obligated balances in DAFIS and FMIS, and develop
procedures for interfacing FMIS with Delphi. FHWA plans to resolve this issue during
the Delphi implementation process.

This report is intended for information and use by the HTF agencies, DOT, OMB,
GAO, and Congress. This report is a matter of public record, and its distribution is not
limited.



Kenneth M. Mead
Inspector General




                                       I-10
Exhibit. Objectives, Scope, and Methodology
Our audit objectives for the HTF Financial Statements for FYs 2002 and 2001 were to
determine whether: (1) principal HTF Financial Statements and accompanying notes
are presented fairly, in all material respects, in conformity with U.S. generally accepted
accounting principles; (2) HTF agencies have adequate internal controls over financial
reporting, including safeguarding assets; (3) HTF agencies have complied with laws
and regulations that could have a direct and material effect on the HTF Financial
Statements or that have been specified by OMB, including FFMIA; (4) financial
information in the Management Discussion and Analysis is materially consistent with
the information in the principal HTF Financial Statements; (5) internal controls ensured
the existence and completeness of reported data supporting performance measures; and
(6) supplementary and stewardship information is consistent with management
representations and the HTF Financial Statements.

HTF agencies are responsible for (1) preparing the HTF Financial Statements for
FYs 2002 and 2001 in conformity with U.S. generally accepted accounting principles;
(2) establishing, maintaining, and assessing internal controls to provide reasonable
assurance that broad control objectives of the Federal Managers' Financial Integrity Act
are met; (3) ensuring that HTF's financial management systems substantially comply
with FFMIA requirements; and (4) complying with applicable laws and regulations.

OIG is responsible for obtaining reasonable assurance about whether (1) the HTF
Financial Statements for FYs 2002 and 2001 are presented fairly, in all material
respects, in conformity with U.S. generally accepted accounting principles and
(2) management maintained effective internal controls. The objectives of these
controls are:

• Financial reporting: Transactions are properly recorded, processed, and summarized
  to permit the preparation of financial statements and stewardship information in
  conformity with U.S. generally accepted accounting principles, and assets are
  safeguarded against loss from unauthorized acquisition, use, or disposition.

• Compliance with laws and regulations: Transactions are executed in accordance
  with laws governing the use of budget authority and with other laws and regulations
  that could have a direct and material effect on the financial statements and any other
  laws, regulations, and Governmentwide policies identified by OMB audit guidance.

OIG also is responsible for (1) obtaining sufficient understanding of internal controls
over financial reporting and compliance to plan the audit, (2) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the
financial statements and laws for which OMB audit guidance requires testing, and


                                        I-11
(3) performing limited procedures with respect to certain other information appearing
in the HTF Financial Statements for FYs 2002 and 2001.

To fulfill these responsibilities, we examined the amounts and disclosures in the
financial statements; assessed accounting principles and estimates; evaluated internal
controls, and evaluated the presentation of the financial statements. We also examined
the validity of financial transactions and interviewed financial management officials.

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the Federal Managers' Financial Integrity Act, such as those controls
relevant to preparing statistical reports and ensuring efficient operations. We limited
our internal control testing to controls over financial reporting and compliance.
Because of inherent limitations in internal controls, misstatements due to error or fraud,
losses or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the degree of compliance
with controls may deteriorate.

We did not test compliance with all laws and regulations applicable to HTF agencies.
We limited our tests of compliance to those laws and regulations required by OMB
audit guidance that we deemed applicable to the HTF Financial Statements for
FY 2002 ended September 30, 2002, and FY 2001 ended September 30, 2001. We
caution that noncompliance may occur and not be detected by these tests and that such
testing may not be sufficient for other purposes. We also caution that our internal
control testing may not be sufficient for other purposes.

We performed our work in accordance with U.S. generally accepted government
auditing standards and OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements.




                                        I-12
